                       Limited Official Use




       Security Controls for the Taxpayer Advocate
        Management Information System Could Be
                        Improved

                           July 2005

              Reference Number: 2005-20-100




The Treasury Inspector General for Tax Administration (TIGTA) has
designated this audit report as Limited Official Use (LOU) pursuant
to Chapter III, Section 2 of the Treasury Security Manual (TD P 71-10)
entitled, “Limited Official Use Information and Other Legends.”
Because this document has been designated LOU, it may only be
made available to those officials that have a need to know the
information contained within this report in the performance of their
official duties. This report must be safeguarded and protected from
unauthorized disclosure; therefore, all requests for disclosure of this
report must be referred to the Disclosure Section within the TIGTA’s
Office of Chief Counsel.




                       Limited Official Use
                                  Limited Official Use
                      Security Controls for the Taxpayer Advocate
                  Management Information System Could Be Improved

                                                                                Appendix II


                           Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Stephen Mullins, Director
Gerald Horn, Audit Manager
Michael Howard, Senior Auditor
Anthony Knox, Senior Auditor
William Lessa, Senior Auditor
Esther Wilson, Senior Auditor




                                    Limited Official Use
                                                                                         Page 2
